-6171

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

Kenneth E.Baptiste

OCT 1 9 2020

— PETITIONER

(Your Name)

OFFICE OF THE CLEPX

VS.

S.Hatton (Warden)
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

U.S.Court of Appeals for hthe Ninth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kenneth E.Baptiste
(Your Name)
(California Training Ficility-Central
P.O.Box 689 Xw208
(Address)
Soledad,Ca. 93960-0689
(City, State, Zip Code)

(Phone Number)

i

!
'

QUESTION(S) PRESENTED
Was instructing the Jury with CALJIC No. 2.15 in error.and denied the Petit­
ioner "Due Process" of Federal Constitutional Demensions.Because he was being
charged a,Capitol Murder offense.And his actual possession of stolen property
was in conflict.And permitted the jury to infer guilt of the Cappitol Murder,on
findings which furnished no rational inference of guilt. And to do so,was Con­
stitutionally impermissible. Pursuant to the recent ruling in Hall v.Haws, 8f>l
F.3d 977(9th cir.2017).And did Trial Court denial of yhe pretrial motion for
Severence of the Capitol murder case.Only serve to compound the denial of the
Petitioner's right to a fair trial, pursuant to the Recent California Supreme
Court case in People v. Anderson,5 Cal.5th 372,235 Cal.Rptr.3d 1.
II
Did the District Court err by dissmissing Petitioners F.R.C.P. section 60
(b)(6) motion for reconsideration,on the grounds it was a "successive Petition".
In which said Motion was based on the recent Ninth Circuit Court of Appeals
decision in Hals v.Haws,supra. In which changed the decisional law used to
deny the claim in Petitioners Original Federal Habeas Petition. Contrary to the
holdings in Gonzalez v. Crosby,545 U.S. 524,528(2005) and Phelps v. Alameida,
569 F.3d 1120(9th cir.2009).
Ill
Did the Petitioner meet the requirments set forth in this Courts decisions in
Miller-el v. Cockrell,537 U.S. 322,122 S.ct.1028 (2003). By his demostration that
Jurist of reason could disagree and conclude the>-issue deserve encouragement
to proceed further.

LIST OF PARTIES

^0 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

Halls v. Haws, 861 F.3d

RELATED CASES
977 (9th cir.2017)

People v. Anderson,(2018) 5 Cal.372,235 CalRptr. 3d 1.
Gonzalez v. Crosby,545 U.S. 524 (2005)
Phelps v. Alameida, 569 F.3d 1120 (9th cir.2009)
Waddington v. Sarausau,555 U.S. 179,191 S.Ct. 823 (2009).
Francis v. Franklin,471 U.S. 307,105 S.Ct. 1965 (1985)

"T

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

U.S. Court of Appeals for the Ninth Circuit denialTof
Motion for reconsideration of denial of a COA.

APPENDIX B

U.S.District Court denial of F.R.C-.-P 60 (b)(6) motion
and denial of a COA.

APPENDIX C

Opinion of the California Supreme Court

APPENDIX D

Opinion of the California Court of Appeals for the

APPENDIX E

Second Appellate District
Opinion of the Superior Court of California for the
County of Los Angeles.

APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Halls v. Haws,861 F.3d977 (9th cir.2017)
People v. Andersson,(2018)

5 Cal.372,235 CalRptr.3d 1

Gonzalez v. Crosby,545 U.S. 524 (2005)
Phelps v. Alameida, 569 F.3d 1120 (9th cir,2009)~
Waddington v. Rarausau, 555 U.S. 179,191 S.CU 823 (2009)
Francis v. Franklin,471 U.S. 307,105 S.Ct.1965 (1985)

STATUTES AND RULES
28 USC 2254
Federal Rules of Civil Procedure, section 60||b) (6)

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
X] is unpublished.
The opinion of the United States district court appears at Appendixto
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
£>^| is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ---- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
M is unpublished.
The opinion of the Cflli
appears at Appendix

(hiif'-^DUful?
to the petition and is

'

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
£<] is unpublished.
1.

court

to

JURISDICTION
[ ] For cases from federal courts:
The ^)^^c^>1^jJnited States Court of Appeals decided my case
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing w^s denied by the United States Court of
Appeals on the following date:
, and a copy of the
order denying rehearing appears at App^ndiv A[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including —_______________ (date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix £ »

ocT-3dZa/4

[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including---------------------- (date) on_______________ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Amendments 6th and 14th of the United States Constitution.
California Jury Instruction No.2.15

3

STATEMENT OF THE CASE
CASE HISTORY:

1. After his conviction was affirmed on Direct Appeal in the State Court Tri­
bunals . Mr. Baptiste on the date of March 6,2006,filed a writ of Habeas Corpus
by a person in statewcustody,pursuant to 28 USC section 2254. Presenting nine
claims for relief. The Petition was assigned to United States District Judge
R. Gary klausner; and referred to Magistrate Judge,A.Nakazato. Who recommended
that the Petition be denied with Prejudice.
2. Ultimately, a Report and Recommendation
adopted by U.S.District Judge

was issued on May 22,2007. And

R.Gary Klausner on June 22,2007; dissmissing

the habeas petition with prejudice. And Order was also issued denying an appli­
cation for a Certificate of Appealability on August 16,2007.
3. An Application for a COA before the United States Court of Appeals for the
Ninth Circuit,was also denied on September 2,2007.
SUPPORTING FACTS FOR RELIEF:
It was alleged in the Original ifederal habeas Petition. That instructing the
Jury with CALJIC no.2.15 was un constitutional.Because it lessened the goverments burden of proof,and relieved the prosecution from proving each element
of the charges beyond a reasonable doubt. And claim nine alleged the denial of
the Trial Court,of.the Defense Motion for Severence of counts 1-3,from the
other's, that involved a Capitol Murder offense. Abridged the Due Process
and Equal Protection Clause,and denied Mr. Baptiste the right to a fair Trial.
5. It was recently held in Hall v. Haws,861 F.3d 977 ||9th cir.2017). That a
Trial court use of California Juury Instruction No. 2.15. Which allowed the
jury to infer guilt of murder from evidence that the defendants were in possess­
ion of recently stolen property,plus slight corroborating evidence,was error of
Constitutional magnitude.And that the California Court Tribunnals determination
other-wise was an unreasonable application of federal law. The identical thing
1

done in the case at bar.
6.

Based on the ruling in Hall v. haws,supra. Mr. Baptiste submitted Petitions

in the state court tribunnals, for a writ of Habeas Corpus. Alleging that it
was instructional error in giving of CALJIC No.2.15; and compounded by the
Trial Court denial of the pre-trial motion by the defense,for Severence of

coun­

ts 1-3 that invovled the Capitol murder charge. On the date of August 14,2019
Mr. Baptiste filed a writ of Habeas Corpus in the California Supreme Court
on said contention.
7. On the date of October 30,2019; the 'California Supreme Court issued an order
denying said Petition,without Opinion. ( Copies of the State Court Tribunnals
opinions is attached and labeled in Appendix C,D, and E.)
8.On or about January 29,2020; Mr,Baptiste submitted a F.R.C.P section 60 (b)
(6) Motion in the U.S District Court for the Central District of California.
Based on the Ninth Circuit court of Appeals decision in Hall v. Haws,supra,and
cases cited. A case on point,as that of Mr. Baptiste. In which the Court of
Appeals affirmed the District Court s granting of Halls motion under rule 60 (b)
(6).And concluded habeas relief was warrented based on the erroneous instruction
of CALJIC No. 2.15.
9. Said rule 60 (b)fl6)

Motion was denied by the District court, and appli-

cation for a COA as well.
10. An Application for Certificate of Appealability was filed in the United
States Court of Appeals for the Ninth Circuit on April 15,2020.And was denied
on August 6,202^. Along with a Petition for rehearing on September 15,2020.
Dated;

2020.

2

REASONS FOR GRANTING THE PETITION

With the Instructional Error being established,and though the Count of
murder was ultimately dismissed,after a hang jury was declared on said count.
Said error was not harmless. For the jury instruction itself infected the
entire trial resulting in convictions that violated "due process". See. Waddington v. Sarausau,555 U.S.179,191 S.Ct.823(2009). And

violated the right to

a fair trial,and the right to be found guilty beyond a reasonable doubt. Pur­
suant to Francis v. Franklin,471 U.S.307,313,105 S.Ct.1965 (1985).
And I think this claim presents an issue of importance to the Federal
Judicial system and the Nation. Based on the material facts and applicable
law,overlooked in the decisions of the lowere Courts. In which a full consid­
eration by this U.S. Supreme Court is requested. To secure and maintain
uniformity of recent decisions by this Court.
And though this Court is not in the business of correcting every mistake
that lower courts make. The issue presented is one of importance, in the
realm of criminal law.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

li

V

7

